<html>
<title> - ISIS: DEFINING THE ENEMY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                        ISIS: DEFINING THE ENEMY

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 29, 2015

                               __________

                           Serial No. 114-31

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-386 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001









                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM KEATING, Massachusetts
DARRELL E. ISSA, California          BRAD SHERMAN, California
PAUL COOK, California                BRIAN HIGGINS, New York
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
REID J. RIBBLE, Wisconsin            ROBIN L. KELLY, Illinois
LEE M. ZELDIN, New York

















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Robert Ford, Senior Fellow, The Middle East 
  Institute (former U.S. Ambassador to Syria)....................     6
Ms. Maryam Rajavi, president-elect, National Council of 
  Resistance of Iran.............................................    23
Walid Phares, Ph.D., co-secretary general, Transatlantic 
  Parliamentary Group on Counterterrorism........................    43

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Robert Ford: Prepared statement....................     9
Ms. Maryam Rajavi: Prepared statement............................    25
Walid Phares, Ph.D.: Prepared statement..........................    47

                                APPENDIX

Hearing notice...................................................    70
Hearing minutes..................................................    71
The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas, and chairman, Subcommittee on Terrorism, 
  Nonproliferation, and Trade:
  Chart of Middle East Alliances.................................    72
  Statement for the Record from the Honorable Tom McClintock, a 
    Representative in Congress from the State of California......    73

 
                        ISIS: DEFINING THE ENEMY

                              ----------                              


                       WEDNESDAY, APRIL 29, 2015

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. Ted Poe 
(chairman of the subcommittee) presiding.
    Mr. Poe. The subcommittee will come to order.
    Without objection, all members may have 5 days to submit 
statements, questions, extraneous materials for the record 
subject to the length and limitation in the rules.
    The Middle East is a complex place. Major players weave an 
intricate web of support and opposition. As you can see on the 
screen that is on each end of the committee room--and 
Ambassador, I think there may be a chart that you have been 
furnished as well--it is hard to keep track of who supports 
what groups. But one thing is clear. Nobody seems to like ISIS.
    Yet, despite everyone being against ISIS, we are not 
winning the battle against the war on ISIS. One of the reasons, 
I believe, is because it is not clear we understand the group 
very well.
    It is time we called it like it is. ISIS is a radical 
Islamic terrorist group. The White House doesn't really like to 
talk about this but we cannot defeat ISIS if we do not 
understand who they are.
    It is critical that we know what its goals are, how it 
seeks to achieve those goals. Even if the White House doesn't 
think ISIS is Islamic, ISIS does.
    ISIS explains its actions and justifies them through its 
interpretation of the Islamic law and Islamic writings. This 
philosophy is reflected in its daily actions and its deadly 
actions.
    ISIS beliefs state that Christians either must renounce 
their faith or embrace Islam or die. It is no coincidence then 
that we have seen ISIS specifically target Christians not 
because Christians are stealing their jobs or fighting against 
ISIS but merely because they are Christians.
    ISIS attempts to rid Iraq of Christians that have been in 
Iraq since the earliest times of Christianity. The 21 Egyptians 
beheaded by ISIS in Libya were killed because they were 
Christians.
    Christian towns across Syria have been destroyed by ISIS. 
Last Sunday, ISIS released a new video of them killing 
Christians, this time Christians in Ethiopia.
    ISIS persecution of Christians is not letting up because 
its beliefs have not changed. This evil belief is what attracts 
many to join ISIS. Two days ago, six men from Minnesota were 
arrested for being recruited to the ISIS cause.
    Reports indicate that there is no recruiting mastermind 
behind their conversation, just the belief of sharing illicit 
beliefs. There are a dozen more examples. Teenagers, women and 
fighting-age males all are heeding the call from ISIS.
    The main way these recruits hear the call from ISIS is 
through social media. I have been raising the issue of 
terrorists' use of social media since 2010 when I sent a letter 
to YouTube asking them to change the reporting function for 
terrorist content.
    More recently, the subcommittee held a hearing that 
highlighted how Twitter has exploded with ISIS propaganda and 
recruitment efforts. ISIS uses Twitter to broadcast its acts to 
the world. Twitter can do a better job policing its platform to 
stop terrorists from using it.
    But I was happy to see that after our hearing Twitter took 
down 12,000 ISIS accounts and updated its rules so that even 
promoting terrorism is a violation. Time will tell if these new 
rules are enforced.
    We cannot shut down ISIS' messaging. We must also counter 
it. To recognize that ISIS justifies its actions with Islamic 
verses does not mean we are at war with Islam. That is too 
simplistic and not realistic.
    According to ISIS ideals, it also thinks the roughly 200 
million Shi'a around the world should also die. Same with the 
heads of state of every Muslim country that has elevated man-
made law above Sharia law.
    What we need is a deeper understanding of what ISIS 
believes and to use this understanding to defeat ISIS and its 
philosophy.
    For example, if we had a better idea of ISIS philosophy 
then we would better understand why people join this group. 
This will, in turn, give us ways to stem the flow of foreign 
fighters going to this terrorist group.
    Another example--if we know ISIS' legitimacy is based upon 
establishing a caliphate that must control territory, then 
perhaps seizing territory from ISIS becomes a higher priority 
by fighting them.
    There are many other possible benefits of having a better 
understanding of ISIS philosophy.
    Finally, we need the voices of Islam who disagree with 
ISIS' interpretation of Islam to come and speak out against 
ISIS.
    We need to find new ways to work with local imams, 
prominent well-respected Islamic scholars and like-minded NGOs 
here at home and abroad to get their voices heard in the Muslim 
world.
    I think we should work with our allies to expose ISIS' half 
truths and show it for the charlatan that it is. ISIS has used 
its ideals to recruit and kill. It is time we now use and find 
out what that ideology is and use it against them.
    I now yield to the ranking member, the gentleman from 
Massachusetts, for his opening statement.
    Mr. Keating. Thank you, Chairman Poe, for conducting 
today's hearing.
    Understanding ISIS, ISIL, Daesh's ideology, how this 
ideology informs ISIL's goal and actions and what are the 
implications for the United States and its allies in countering 
ISIL are issues that merit serious discussion.
    As the ranking member on this subcommittee and a member of 
the Homeland Security Subcommittee on Counterterrorism and 
Intelligence, I have engaged on ISIL from two perspectives--on 
one hand, from our efforts to counter ISIL abroad in the Middle 
East and on the other hand from our work to prevent terrorist 
acts and the flow of freedom fighters here at home.
    ISIL is a unique threat, and although it rose out of the 
group commonly known as al-Qaeda in Iraq, its objectives and 
tactics differ significantly from those of al-Qaeda.
    Even compared to other terrorist organizations, ISIL's 
tactics are especially and deliberately savage. ISIL's 
atrocities against its captives and religious minorities living 
in the territory controlled by ISIS is horrific.
    Even compared to other terrorist organizations, ISIL's 
tactics are especially of concern to us. It is brutal, 
intolerant toward other faiths, and invokes its ideology to 
justify practices including murder, slavery and the destruction 
of ancient artifacts in Iraq and Syria.
    But ISIL's actions are also hypocritical, for while it 
destroys certain pre-Islamic statues and cultural objects in 
the name of its ideology, it is also known to traffic in these 
sorts of antiquities to finance its terrorist operations.
    Indeed, ISIL's members are not exclusively ideologues. 
Instead, I see ISIL as being made up at least loosely as three 
loose factions--true ideologues with an apocalyptic version of 
Islam, old pro-Saddam military and intelligence officers and 
foreign fighters from around the world.
    Some of these foreign fighters are hardened fighters but 
many are just what the uncle of Tamerlin Tsarnaev called his 
nephew, one of the Boston Marathon bombers--a loser, misguided 
adventure seekers and young men and women who joined ISIL for 
some sense of power and purpose they otherwise lack.
    To degrade and ultimately defeat ISIL we will have to cut 
off its supply of money and manpower. Specifically, we need to 
work with our allies to improve our efforts to prevent the flow 
of foreign fighters to Iraq and Syria.
    We also need to do a better job of countering ISIL's 
messaging to potential recruits and responding to ISIL's savvy 
using social media.
    We need to counter their communications smartly and not in 
a heavy-handed way that would give them legitimacy that they, 
frankly, do not deserve.
    Further, we need to assist our allies in the region, 
particularly Jordan and Iraq, in containing and rolling back 
the territorial gains made by ISIL, for unlike al-Qaeda, ISIL 
still needs to control territory in order to survive.
    It is my hope that today's hearing will provide some 
insights and constructive proposals on how the United States 
and its allies can enhance their efforts to counter ISIL.
    Thank you, Mr. Chairman, and I yield back.
    Mr. Poe. The Chair will now recognize members who wish to 
give an opening statement for 1 minute. I would ask members to 
keep their statements to 1 minute.
    The Chair recognizes the gentleman from California, Mr. 
Issa.
    Mr. Issa. Thank you, Mr. Chairman.
    It is good to see you again, Ambassador. Seems like the 
only time we meet in safe ground is here. Otherwise, your 
career has been in all the places that are at the center of 
this discussion today and I appreciate your being here, 
certainly, as someone who understands the issues and the people 
with a level of detail that is not--even in the Near East--is 
not always understood.
    And, Mr. Chairman, I want to thank you for holding this 
hearing. I certainly think understanding where we must learn 
not to tolerate the intolerance that leads to ISIS or for that 
matter the intolerance that has led to other terrorist 
organizations, which I think you have done a wonderful job of 
showing most of them on your diagram that is before us.
    So, again, Ambassador, I look forward to a lively debate on 
all the steps that could be taken, most of which if they had 
been taken have failed and if they haven't been taken the 
question today will be why not.
    I thank you and yield back.
    Mr. Poe. I thank the gentlemen.
    The Chair recognizes the other gentleman from California, 
Mr. Sherman, for his opening statement.
    Mr. Sherman. I want to commend the chair and the ranking 
member for their excellent selection of witnesses. One witness 
is particularly controversial and that is because that witness 
represents an organization that was formerly on the foreign 
terrorist organization list. Formerly.
    The Japanese Government in times past carried out horrific 
actions, particularly against American POWs. That was then. 
Today, we honored the prime minister of Japan.
    The prime minister was here today to promote a trade 
agreement that includes Vietnam, formerly an enemy of the 
United States. The executive branch has treated as terrorists 
the IRA, Sinn Fein, the African National Congress at various 
times. Formerly is formerly.
    Second, the MEK, unlike the vast majority of witnesses, 
present company excepted, has actually provided Congress with 
startlingly interesting and useful information such as the 
existence of the Natanz nuclear facility.
    Third, we are told that Ms. Rajavi has greater expertise on 
Iran than on ISIS. If we allow--if we had one witness pull out 
every time that witness thought that the core expertise of a 
fellow witness was in an area on a related issue and not the 
explicit subject of the hearing, we would have an awful lot of 
empty chairs.
    And finally, the press has attacked the inclusion of the 
MEK in this hearing because, although the MEK has provided 
incredibly useful information, they tend to provide information 
that furthers their public policy interest.
    I've been here almost 20 years. I've heard about 16,000 
witnesses. I have never heard a witness that wasn't providing 
information to further their public policy interest.
    So I look forward to hearing the witnesses here and commend 
you on your selection. I yield back.
    Mr. Poe. I thank the gentleman.
    The Chair recognizes the gentleman from Pennsylvania, Mr. 
Perry.
    Mr. Perry. Thank you, Mr. Chairman.
    President Obama declared his intention to defeat ISIS and 
developed a plan he believes can achieve his aims. However, I 
have serious concerns with the strategy, and I use the term 
loosely, especially because the President doesn't seem to have 
a clear understanding of our enemy.
    In the past year, President Obama has referred to ISIS as 
not Islamic and as al-Qaeda's JV team--statements that caused 
confusion about the group and may have contributed to 
significant strategic errors.
    Denying that the U.S. is at war with radical Islam makes it 
difficult to engage in a factual honest ideological debate 
exposing ISIS' false narrative and to empower moderate Muslim 
voices.
    Misperceptions and the lack of understanding about ISIS 
have consistently led to underestimating this rapidly expanding 
terror group.
    The reality is that ISIS is very Islamic, even if its 
interpretation of Islam differs from the majority of Muslims 
around the world, which is exactly why we should identify the 
enemy as what it is.
    Thank you, Mr. Chairman. I yield back.
    Mr. Poe. The Chair now recognizes the gentleman from New 
York, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman, for holding this 
important hearing.
    The understanding of ISIS' origins, motivations and 
ideology are of critical importance in our bid to defeat this 
brutal terrorist group.
    ISIS' Salafi jihadist ideology is not unique among 
terrorist organizations. However, its brutal exploits, 
proficient use of social media, expansive territorial control 
and commitment to a pre-modern form of governance constitute a 
dangerous evolution that set it apart from its predecessors.
    While ISIS' reliance on territorial control and governance 
makes it a uniquely serious threat for the United States and 
our partners, these attributes also represent serious 
vulnerability.
    ISIS forces can be targeted more easily and if it continues 
to lose territory or its ability to govern it will have lost 
much of its legitimacy.
    I look forward to the discussion of today's witnesses, and 
with that I yield back.
    Mr. Poe. The Chair recognizes the other gentleman from New 
York, Mr. Zeldin, for his opening statement.
    Mr. Zeldin. Thank you, Mr. Chairman, for holding this 
important hearing.
    You can't defeat an enemy that you are not willing to 
define accurately. The President, in September 2014, outlined a 
strategy to defeat ISIS. That strategy needs to evolve.
    In that strategy--that speech he said that he was not going 
to have any boots on the ground. It was going to be a different 
strategy than past wars in Iraq and Afghanistan. In the same 
exact speech he announced that he was sending 495 additional 
troops to Iraq.
    Here, when Secretary Kerry was before the Foreign Affairs 
Committee recently, he said there would be no offensive action, 
even though right now we are engaged in kinetic air strikes.
    He later clarified we still have unanswered questions as 
far as what kind of flexibility and resources are going to be 
given to that commander on the ground to actually accomplish 
the mission.
    We are relying on Iraqi military and law enforcement to 
finish the job in destroying ISIS. Many of them don't even show 
up to work. Many of the Syrian rebels that we are relying on on 
Syria aren't fighting ISIS. They are going after Assad, which 
it wouldn't be such a bad thing if they took him out.
    The strategy needs to evolve. I look forward to this 
hearing today to bring some more accountability not only to 
defining the enemy but destroying them.
    Mr. Poe. Without objection, all witnesses' prepared 
statements will be made part of the record. I ask that the 
witnesses keep their presentation to approximately 5 minutes.
    I will introduce the first panel. Ambassador Robert Ford 
finished his 30-year career with the Peace Corps in the U.S. 
Department of State in April 2014 and now is a senior fellow at 
the Middle East Institute. Ambassador Ford has served the 
United States nobly in a lot of places that have conflict such 
as Algeria, Syria and Iraq.
    Dr. Walid Phares, who is scheduled to testify here on the 
panel, is still on a plane from New York to here. So when he 
gets to Dulles we will be notified. But we will proceed with 
Ambassador Ford and your testimony at this time.
    Thank you, Ambassador. Your statement will be made part of 
the record.

  STATEMENT OF THE HONORABLE ROBERT FORD, SENIOR FELLOW, THE 
    MIDDLE EAST INSTITUTE (FORMER U.S. AMBASSADOR TO SYRIA)

    Mr. Ford. Thank you, Mr. Chairman, members of the 
committee. Thank you for your invitation today. It is an honor 
to be here to talk about the Islamic State, which is one of the 
biggest foreign challenges that our country and our military 
confronts today.
    I have laid out in my written testimony some more detailed 
thoughts about the ideology of the Islamic State and what an 
understanding of that ideology would suggest in terms of our 
own strategies.
    So in my oral testimony let me just highlight a few key 
points. Number one, the Islamic State's ideology comes out of a 
Salafi jihadi school, as Congressmen Higgins just noted.
    It allows for no compromise on key elements of doctrine and 
practice. Let me underline that. It allows for no compromise on 
key elements of doctrine and practice.
    According to its ideology, compromise in applying divine 
instruction is sin and an adherent would not want to die with 
that sin weighing against him.
    Number two--because ultimately the Islamic State rejects 
compromise, it also rejects pluralism and it even rejects 
things like borders between states and foreign governments.
    Three--in policy terms, this means that the Islamic State 
itself thinks that it must fight communities who reject its 
rule. It cannot compromise with communities that reject its 
rule.
    It would be a sin for its leaders and its adherents to make 
such a compromise. So what that means is that Iran and the 
Shi'a may be the Islamic State's greatest immediate enemy. But 
we need to understand that the Islamic State also sees us as an 
eventual if not an immediate enemy.
    It views us as an enemy to the application of its 
literalist interpretation of divine law across the planet. The 
Islamic State's ideology also creates some weaknesses that we 
should seek to exploit.
    First, its severe literalist interpretation of governance 
and justice alienates a great many inhabitants of territories 
it controls. We have seen this, for example, in Syria and Iraq.
    There will be local populations in these countries with 
whom we can make common cause against the Islamic State.
    Secondly, this is especially true with other armed 
opposition groups in Syria. Those opposition groups have fought 
the Islamic State on the ground. I want to repeat that.
    Those opposition groups have fought the Islamic State on 
the ground for the past 16 months. Some of them are also 
Salafis. The Islamic State has killed scores of Salafi fighters 
from other groups because those other groups refused to 
acknowledge the Islamic State's authority.
    Remember what I said. It accepts no compromise. What that 
also means in practical terms is that if the Assad regime in 
Syria were to fall, which is an event that I judge highly 
unlikely anytime soon, the Islamic State would not--let me 
repeat, the Islamic State would not take control in Damascus.
    Rather, other Syrian opposition groups, like antibodies, 
would rush to fight against it even harder. We should be 
helping anti-extremist Syrian fighters the same way we are 
helping the Iraqi army.
    Three--we should not fall into the trap, and I have seen 
this discussed in some policy circles here in Washington. We 
should not fall into the trap of thinking that working with 
Iran will help fix our Islamic State problem.
    The Islamic State arose in part--not entirely, but in part 
from longstanding grievances and fears within Sunni communities 
in the Levant and Iraq about growing Persian and Shi'a 
influence.
    Working with Iran, even indirectly, will feed the Islamic 
State narrative and will immediately help its recruiting.
    Lastly, the Islamic State's declaration of a caliphate was 
quite controversial within Salafi jihadi circles. Its claim to 
legitimacy and allegiance depends on its control of land and 
its ability to apply its interpretation of Sharia, of Islamic 
law.
    Were it not to control land, were it not to be able to 
govern, its claim to legitimacy within those Salafi jihadi 
circles would be undermined, and therefore seizing ground--not 
just air strikes but seizing ground--needs to be an important 
part of our strategy.
    Mr. Chairman, let me conclude there and I look forward to a 
good discussion.
    [The prepared statement of Mr. Ford follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. Thank you, Ambassador, for succinctly outlining 
the issue before us.
    What is the doctrine of ISIS? You mentioned that there were 
two issues. They won't compromise. Compromise is sin. What is 
the doctrine?
    Mr. Ford. The Islamic State's leadership and its adherents, 
the ones that are ideologically driven--and I rush to add here, 
Mr. Chairman, that not everyone that fights under the banner of 
the Islamic State is probably ideologically driven--I think a 
great many, especially in Syria, are driven by more mundane 
things like salaries and access to food and war supplies.
    But for the ideologically driven among them, their goal is 
to apply their interpretation--emphasize that, their 
interpretation--of divine law, Sharia, on the planet.
    And they--because they do not accept borders, any borders, 
they believe that it is to be applied universally to all 
mankind and those who resist must, in the end, submit and--
either submit or be killed.
    Mr. Poe. Submit or die?
    Mr. Ford. Right. Now, can I add one thing on this? I have 
seen a great deal of discussion about the Islamic State and 
Christians.
    The doctrine--the doctrine is that Christians must either 
convert or submit, and submit in this case means pay taxes, 
which in Islamic law is called jizya, or they face death, too. 
So it is convert, pay the tax or they can leave--they can go 
somewhere else--or they will be killed.
    Mr. Poe. Convert, pay your taxes or die?
    Mr. Ford. Or leave, yes.
    Mr. Poe. Or leave.
    Mr. Ford. So what I saw, for example, people who claimed to 
be from the Islamic State in Libya, where they murdered the 
Egyptian Coptic Christians and then the Ethiopian Christians, I 
think that falls well outside even the Islamic State's 
interpretation.
    For example, in Syria they allowed Christians to stay but 
they insisted that they pay that tax--the jizya.
    Mr. Poe. Let me move on to some other comments that you 
made. Their leadership--let us use them. And I understand 
people are joining ISIS for different reasons. They are not all 
united on the reason that they are there.
    But it is their interpretation of what they see as divine 
law that drives their process of doctrine and then drives their 
process of compromise or refusing to compromise.
    I want to talk about the compromise part. That means 
compromise with anybody else--is that correct--let us say other 
Muslim beliefs, other Muslim philosophies about religion or the 
Koran.
    Mr. Ford. Correct. They believe that their interpretation 
is the only valid one and that is why they have murdered scores 
and scores of even other Salafis in places like Syria.
    They are by far the most extreme, which is why in a place 
like Syria, Mr. Chairman, you have some Salafis fighting other 
Salafis.
    Mr. Poe. A couple more questions with my time remaining. 
One thing that you mentioned that makes them different than all 
these other terrorist groups that are listed on this chart--and 
you need a flow chart to keep up with them--in the whole 
world----
    Mr. Ford. That is quite a chart, Mr. Chairman.
    Mr. Poe. Well, you can keep it. There is no pride of 
authorship. They control and desire to control land. Unlike al-
Qaeda and the Taliban, who hide in caves and run out and do 
mischief and then run back to their caves, ISIS is up front.
    They want to control swathes--big areas--and get bigger to 
have a caliphate there in Syria, Iraq and move in different 
directions. Is that what makes them different than other 
terrorist organizations?
    Mr. Ford. That is one of the most distinguishing features 
of the Islamic State is this drive, this insistence by the 
Islamic State, to actually create a governing entity and not 
just a terrorist entity but a real live governing organization 
with a bureaucracy, with a military, that collects taxes, that 
operates court systems openly.
    That is what is different, and their declaration of that, 
Mr. Chairman, was quite controversial within Salafi jihadi 
circles.
    A lot of other Salafis said it is not time. It is 
premature. Or they said you don't actually control the land and 
you won't be able to do it and so you are full of baloney. 
Others said your doing so will simply increase divisions among 
the Salafis and therefore it is unwise.
    So that is a point of vulnerability--that declaration of 
the caliphate, this issue of controlling land--is a real 
vulnerability within their own school of Salafi jihad Islam.
    Mr. Poe. Try to get two quick questions, maybe quick 
answers back. How big is ISIS, number wise?
    Mr. Ford. In terms of total numbers of people that live 
under its control, happily or unhappily, probably a couple of 
million.
    The big cities in Iraq that are under its control are 
Fallujah and Mosul and probably have a population of 1.5 to 2 
million. Then on the Syrian side, maybe another million.
    Mr. Poe. And ISIS has made it clear by their actions and 
their beliefs and their rhetoric that Iran is an enemy of ISIS 
because of their different doctrine and philosophies of the 
Iranian Government. And you mentioned it would be--would it be 
foolish for the United States to try to side with Iran trying 
to fight ISIS? Is that what you were saying?
    Mr. Ford. Exactly. That plays into their efforts to recruit 
by saying there is an American-Iranian conspiracy to put down 
the Sunnis and we are the ones fighting it.
    Mr. Poe. All right. Thank you, Mr. Ambassador. I will yield 
to the ranking member, Mr. Massachusetts.
    Mr. Keating. I like that. Makes me sound like some kind of 
bodybuilder.
    Mr. Poe. I called you something different last week, if you 
remember. Go ahead.
    Mr. Keating. Thank you, Mr. Chairman. Thank you, Mr. Texas.
    I just want to deal with the issue, initially, of foreign 
fighters and there are some written reports--I will only go 
that far in commenting on them--that there might be as many as 
22,000 upwards in terms of foreign fighters.
    They are the people they are putting on the front line, 
many times for suicide attacks and the most vicious attacks in 
that regard. So a couple of things.
    Number one, Turkey has shown, some initial hesitancy at 
least, in working to degrade and defeat ISIL. Foreign fighters 
continue to pass through Turkey. What can the United States and 
its allies do to further engage Turkey, and what more can 
Turkey do to guard its borders so that it can't be used as a 
conduit for these foreign fighters as much as it has been?
    Mr. Ford. Congressman, the Turks do have a border problem 
and it is causing problems for us, too. They need more manpower 
along that border because these are--let us be frank--they are 
ancient smuggling routes.
    There are lots of little goat paths--there are lots of 
little donkey paths that have been there for centuries and they 
need to be shut down.
    There is not a fence along the entire 500-mile Syrian-
Turkish border and there is not a fence along the Iraq-Turkish 
border either.
    So it is a question of devoting more resources. The Turks 
have also asked for greater cooperation in terms of sharing the 
names of extremists moving around. I think that will help but 
that is not sufficient. There is a strong need for actual 
control--physical control of the border.
    The other thing I would just say, and I think this is 
really important, I was in Turkey recently at the end of 
January and beginning of February.
    The Turks have real doubts about the utility of a policy 
that focuses on combatting the Islamic State without also 
dealing with and removing the Bashar al-Assad government, which 
they believe fuels the recruitment to the Islamic State.
    Their argument would be something like this. You can bomb 
and kill 50 of them and they will recruit 45, 48 or 50 the next 
day because they want to fight Bashar al-Assad. So the strategy 
that the American administration has laid out, in the Turkish 
view, is inadequate.
    Mr. Keating. I see. Also, just looking at our European 
allies in this regard, what can they do that they are not doing 
now to help stem the flow of foreign fighters?
    Mr. Ford. Couple of comments on that. First, I think many 
of our European friends are genuinely concerned about the size 
of the foreign fighter flow. You mentioned a 22,000 number. I 
have seen numbers like that.
    I know, for example, that the French and the Belgians are 
exceptionally concerned about the numbers of their citizens 
that are going. And so, in a sense, you have to deal with it on 
two levels.
    One is just a pure intelligence and security effort to 
block movements, whether they be out of Europe or coming back 
into Europe. And then the second is, they need people within 
the Muslim communities of those countries themselves to be 
explaining to potential recruits why joining the Islamic State 
is not only wrong morally, but will also land them in serious 
trouble.
    Mr. Keating. Other groups, including affiliates in 
Afghanistan, Algeria, Egypt, Libya as well as Boko Haram in 
Nigeria, have significantly pledged to ISIL as well. What are 
the operational and financial relationships between these 
organizations, and do ISIL leaders exert command and control in 
any way over these groups?
    Mr. Ford. There have been lots of little Salafi splinter 
groups that have announced their allegiance to the Islamic 
State, although some others have pointedly declined to do so in 
places like Algeria.
    The two big ones that have pledged allegiance are Libya and 
in the Sinai Peninsula. Those are the two most serious.
    On the Libya side, I am not aware that there is much 
command and control. I rather doubt that. But there certainly 
has been some sharing of information in terms of how to use 
social media and how to do filming.
    If you saw, for example, that terrible film where the 
Egyptian Christians were marched onto the beach and then 
murdered, that bore a very frightening resemblance to videos 
that have come out of places like Iraq and Syria, and the same 
in Sinai.
    So there certainly are some kinds of links but I don't know 
if it extends to command and control. With respect to 
financial, Congressman, I just can't say one way or the other. 
I don't know.
    Mr. Keating. Well, thank you, Ambassador. I yield back.
    Mr. Poe. The Chair recognizes the gentleman from 
California, Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman.
    Ambassador, bios are a wonderful thing, especially when 
they link us back to the early days of the Afghan initiative 
after 9/11. At that time, the then Bush administration was 
focused on Afghanistan and the Taliban-supporting al-Qaeda.
    We have certainly morphed a long way during the second half 
of your career and my entire career in Congress together. 
Today, that complex chart that I will hold up one more time and 
say it isn't nearly complex enough for the problem----
    Mr. Ford. I hope there is not a test on that chart later.
    Mr. Issa. Well, if--there are a whole bunch of lines that 
should go both ways for opposed, too. But before we modify 
that, Ambassador, we were overly simplistic in 2001 when we 
viewed the Middle East.
    At that point you were halfway through your career. You 
were an expert in Near East, Middle East, and a little bit of 
Africa. Now, today, we are a little more aware of the 
complexity.
    We understand the real struggles between various power 
groups--the former Ottoman Empire in Turkey and their not 
wanting to acquiesce to other powers--obviously, Persian 
expansion to regain their historic position, and Saudi Arabia's 
control of Mecca and Medina.
    I am not trying to give a lecture here. I will bring this 
to a close. These odd alliances that often--you explained 
caliphates--but, of course, the idea that an Alawite minority 
in Syria, somewhat Shi'a in its nature, could dominate the area 
and in fact support both Shi'a and Sunni operations against 
Israel is longstanding and has been ignored.
    So what I want to do in the limited time after this little 
diatribe of history is ask you specifically, Syria seems to be 
one of our most complex areas.
    We know that everybody in Syria either is or could be on 
the wrong side because we, obviously, know that Assad is 
aligned with Iran. We know that many of the Sunnis are involved 
with ISIS and, as you said, there is a real question about what 
after Assad.
    So let me just go through two or three quick points and you 
can take as much time as the chairman will give you afterwards.
    The potential outcome if Assad falls is one area, because 
although he has shown a resilience it is not a forever 
situation in any of these countries.
    Secondly, the effects of a no-fly zone both on the long-
term strategy of, if you will, bringing peace of some sort to 
Syria with or without Assad leaving and its effect on refugees.
    And then the last one, which is the one I alluded to in 
this long question--how would you suggest we find and define 
and be comfortable in what the administration calls the, if you 
will, the moderate Free Syrian Army forces?
    How do you find those groups when there seem to be more 
people in the two other groups that we say we oppose? And 
thanks for taking notes on that. If there is time left, we will 
go to Yemen.
    Mr. Ford. I think Syria is just the hardest nut. It is just 
the hardest nut to crack, very tough. With respect to your 
questions, I think it is very unlikely, as I said, that Assad's 
regime is going to collapse tomorrow or the next day.
    It is getting weaker but I don't think it is about to 
collapse. But if we think--if we stretch out this--where it is 
going in this long horrible war of attrition, were the regime 
to finally be worn down what you would have is you would just 
have more groups fighting for control of the capital and you 
might end up with a situation where different opposition groups 
control different neighborhoods of Damascus. The Islamic State 
might control some but they wouldn't control it all.
    Mr. Issa. Right. And in that vein, what would be the 
effects on Christians, a rather large minority in the region, 
since Assad is effectively the protectorate of Christians?
    Mr. Ford. Well, I don't--I wouldn't call Bashar al-Assad 
the protector of the Christians. He likes to call himself that 
but his forces have bombed plenty of churches, too.
    Mr. Issa. Sure.
    Mr. Ford. So the effect on Christians, like the effect on 
all Syrians, would be really bad because the fighting would 
just get worse. We will have a huge surge of refugees out of 
Damascus so----
    Mr. Issa. Which brings us to the other two points, the no-
fly zone, and where do you find moderates?
    Mr. Ford. Yes. With respect to the no-fly zone, this is a 
tough one. Where I am on this now, Congressman, is a no-fly 
zone could help but not just without thought and a strategy.
    The no-fly zone--we had a no-fly zone in Iraq and it lasted 
12 years and it only ended when U.S. troops went into Baghdad. 
So I don't think we want to do another 12-year no-fly zone over 
Syria.
    So the real question is, can you use a no-fly zone to get 
to the political settlement that we want? And that requires 
then that in return for our doing a no-fly zone, the 
opposition--the Syrian opposition--is going to reach out to 
elements that now support the Assad regime and say, hey, there 
is a third choice.
    It doesn't have to be the Islamic State or Assad. There is 
a moderate third choice. Work with us on that.
    I have to be honest. I don't think the Syrian opposition 
has done a very good job of that. And the other part of that is 
if we are going to do it the quid pro quo really needs to be 
from the Turks--you will put the resources on that border and 
shut it down so that we don't have Islamic State and al-Qaeda 
elements moving back and forth over the order to get food, to 
get medical care, to travel, whatever it is.
    So if we are going to do a no-fly zone, Congressman, we 
need to leverage that to get things that we need out of the 
other side.
    With respect to your question about how do you find 
moderates in the Syrian armed opposition, that is a----
    Mr. Poe. If you would, Ambassador, try to keep it brief.
    Mr. Ford. Yes. The main thing is, Congressman, there are 
moderates. There always have been moderates. They need support. 
There is a competition for recruits between moderates and 
extremists. We need to empower the moderates to be able to 
recruit better.
    Mr. Issa. Thank you, Mr. Chairman.
    Mr. Poe. The Chair recognizes the gentleman from New York, 
Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    Ambassador, ISIS seeks death and destruction to anyone who 
does not believe as they do. They have a presence in Syria. 
They have a presence in Iraq. They are expanding to North 
Africa and they appear to be on the move.
    What is the historical relationship between ISIS and al-
Qaeda? ISIS is an outgrowth of al-Qaeda--a radical outgrowth of 
al-Qaeda, I presume, but I need your clarification on that.
    Mr. Ford. The Islamic State is actually the offspring of 
al-Qaeda and in particular the al-Qaeda in Iraq organization. 
But originally al-Qaeda in Iraq was not thinking about setting 
up a state.
    Over a period of years, really, between 2006 and 2013, al-
Qaeda in Iraq more and more took on the idea of creating a 
state, of creating a caliphate. But originally it was loyal to 
bin Laden and Zawahiri and the real split that now exists 
between the Islamic State and al-Qaeda is mainly over this 
issue of a state.
    Mr. Higgins. Okay. The--in the Middle East or in the 
continent of Africa is there--are there instances of al-Qaeda 
and ISIS in open conflict?
    Mr. Ford. I am not aware of al-Qaeda and Islamic State 
elements fighting each other in North Africa or in sub-Saharan 
Africa. I have not seen that. But there has certainly been 
evidence of that in abundance in Lebanon and in Syria.
    Mr. Higgins. Okay. So there is, clearly, the potential for 
more of that open conflict between those two groups. ISIS is--
wants to be ever present. ISIS wants to control territory and 
expand its control of that territory yet they don't appear at 
the moment to pose an existential threat to the United States. 
Al-Qaeda has been more explicit about that. Is that an accurate 
statement?
    Mr. Ford. The Islamic State has said plenty of blood-
curdling things against the United States and it has threatened 
the United States on any number of social media messages.
    Mr. Higgins. Okay.
    Mr. Ford. I wouldn't call it an existential threat but it 
is certainly a terrorist threat, absolutely, and I think we 
have to take them at their word, Congressman, that if they 
could reach out and strike us they would.
    Mr. Higgins. Okay. Would you--would you agree that ISIS is 
a product of decades of failed governance in the Arab world and 
of the hijacking of Arab Islam--kind of a toxic mix?
    Mr. Ford. Absolutely, that is part of it. For example, 
there was a really good article in November of last year in the 
New York Times about Tunisians who were going to the Islamic 
State-held territories in Syria.
    Tunisia has a really good middle class. It has suffered but 
it is still a strong middle class with Mediterranean 
influences. And yet thousands of Tunisians have gone over to 
the Islamic State, and why is that?
    And the main reason is there are frustrations among many 
young Tunisians about corruption, lack of opportunity, bad 
economic opportunities. And so one element of the Islamic State 
appeal--not the only element but one element of the appeal--is 
its claim to good governance.
    Mr. Higgins. Yes. You said in your opening statement that 
ISIS adopts a policy through their ideology of no compromise--
compromise is sin. It rejects pluralism and it has a presence 
in an area of the world that is highly pluralistic and it 
rejects borders.
    How do you combat ISIS and their expansion in this part of 
the world?
    Mr. Ford. It is really important to seize territory because 
it defines itself as a state with a bureaucracy and an 
organization. Therefore ground forces, and I would strongly 
argue not for American ground forces but for indigenous ground 
forces in Iraq and Syria, elsewhere, Lebanon. I think that is 
the way to combat it ultimately.
    Mr. Higgins. Yes, but I suppose my point is this. Without 
compromise, there is no negotiated settlement to this thing 
anywhere, anytime, and therefore they have to be destroyed.
    Mr. Ford. Exactly.
    Mr. Higgins. So, you know, the strategy is then, and we 
discuss a lot about where these recruits are coming from. I 
don't think there is enough emphasis on why they are coming and 
I suppose it is a more complicated question with a complicated 
response to it. But it seems like there is one objective here, 
and I suppose the question becomes how best you accomplish 
that.
    Mr. Ford. You want to strangle it on a variety of different 
levels, Congressman, whether that be recruitment, financing, 
access to the media, which ties into recruitment and financing, 
and control of territory.
    For sure undermining its ability to recruit is extremely 
important which is why I talked about not playing into the Iran 
idea.
    Mr. Higgins. Okay. I yield back. My time is expired.
    Mr. Poe. The Chair recognizes the gentlemen from 
Pennsylvania, Mr. Perry.
    Mr. Perry. Thank you, Mr. Chairman.
    Ambassador Ford, good to see you again. The last time we 
spoke was regarding the red line in Syria prior to Assad 
crossing the red line and if you recall my questioning was what 
our range of options might be.
    And so that kind of colors the context of my thinking 
regarding the administration in my opening statement, et 
cetera.
    With that in mind, I think that you may have alluded to the 
fact that the administration is right to understand that we 
have to confront the Islamic State and that this is an 
organization wholly different from al-Qaeda. I think throughout 
the course of the discussion you have kind of buttressed that 
claim.
    As an individual who has worked in the current 
administration and maybe understands better than some of us on 
the outside that are casual spectators and frustrated 
spectators, why do you think, if you would proffer an opinion, 
the administration, the President in particular, it doesn't 
seem like he understands the threat that ISIS poses or at least 
his actions don't reflect that. Would you comment on that?
    Mr. Ford. I think the administration actually is doing not 
so bad on Iraq in fighting the Islamic State in Iraq. It is 
going to be a slow effort but ground has been taken back, and 
although it is not an easy battle, I think there is progress.
    On the Syria side, Congressman, I think the strategy of 
simply trying to arm one element of Syrian fighters and sending 
them into the Islamic State without looking at the broader 
conflict in the end will not be adequate.
    There is this--Congress voted for it--$500 million program 
to train the new Syrian force--5,000, 10,000, maybe 15,000 if 
they are lucky--to go in over the next couple of years and 
fight the Islamic State.
    I personally doubt very much that that will be an effective 
way to do it because it won't address the recruitment problem.
    Mr. Perry. So let me clarify because maybe I wasn't clear. 
I am not talking about the borders of Iraq and Syria and what 
is occurring there so much as the ideology, as I see it, that 
is not only pervasive to the region but pervasive around the 
globe.
    And when I see that we have leaders come to the White House 
to have a summit and a discussion of what comes out of it is 
some kind of view that the terror movement is not embedded in 
an ideology but in socio-economic disparities I wonder if I am, 
and the rest of the world, are completely wholly off base--or 
the administration is missing the mark because one of us must 
be.
    I mean, when you think that--you know, would you say that 
Osama bin Laden had economic issues that drove him? I mean, he 
was a wealthy man, and Ayman al-Zawahiri is--I think he is an 
eye surgeon, right?
    I mean, these are not people without means. So why would we 
focus on the--I understand from a recruitment standpoint it 
might have a component to it. But we are talking about leaving 
your home as a teenager to go cut people's heads off and live a 
life of great hardship.
    Mr. Ford. I put it like this, Congressman. For every one 
Osama bin Laden or every one Ayman al-Zawahiri there are 
probably 50 young Tunisians, young Syrians, young Iraqis who 
are not necessarily joining because they are ideologically 
driven but because they are angry at the world.
    They don't have economic opportunity. They have been 
disenfranchised. They are sick of corruption and so the Islamic 
State is----
    Mr. Perry. There is a lot of Americans that feel that way 
that have nothing to do with it but----
    Mr. Ford. Well----
    Mr. Perry [continuing]. But we don't go doing things like 
the Islamic State does.
    Mr. Ford. The good news is, Congressman, we have a much 
more responsive political system than most Arab countries do. 
So those grievances are real and they drive a lot of the very 
broad Islamist movement in the region including the Salafi 
jihadi element among them, and my experience in the 
administration is that they focus on that broader problem----
    Mr. Perry. But we are not--we can find jobs in this country 
for people.
    Mr. Ford [continuing]. Which the Islamists----
    Mr. Perry. We are talking about getting jobs in those 
countries for people as a solution set to the spread of this 
scourge. It is so counterintuitive and seems, quite honestly, 
it seems imbecilic.
    Mr. Ford. Actually, Congressman, I don't agree. I think 
that were socioeconomic conditions better in many Arab 
countries the----
    Mr. Perry. So how do you explain the foreign fighters from 
America going there?
    Mr. Ford. The foreign fighters from America are a tiny 
minority.
    Mr. Perry. Regardless----
    Mr. Poe. Excuse me. The gentleman's time has expired.
    Mr. Perry. Thank you, Mr. Chairman.
    Mr. Poe. The Chair will recognize the gentleman from New 
York, Mr. Zeldin.
    Mr. Zeldin. Thank you, Mr. Chairman.
    I guess just picking right where Mr. Perry is leaving off, 
Ambassador Ford, if you were sitting in the Oval Office and 
President Obama was asking you for advice as to how to evolve 
the strategy to better defeat the threat, what would you tell 
him?
    Mr. Ford. Find indigenous groups that will take the lead in 
combatting the Islamic State in North Africa, in Syria, in 
Lebanon, in Iraq--indigenous. The American role should be 
supportive but they need, A, to find indigenous fighters and B, 
they need to address root causes. Let me give you an example.
    Mr. Zeldin. What if you can't find indigenous forces?
    Mr. Ford. Well, but I think you can and I think, frankly, 
if you put the resources out there you can develop the moderate 
forces.
    Can I give you an example of what I am talking about? This 
is a widely known story in Syria, frankly, is where the capital 
of the Islamic State is now in Raqqa. So there is a soccer 
player named Abdul Baset al-Sarout.
    He is a soccer player, well known in Syria. He joined the 
Islamic State after he had been fighting off the outside regime 
for 2 years at home and saw people bombed, et cetera, starved 
because of the regime's brutality. He ended up joining the 
Islamic State.
    Syrian activists I know talked to him in January--the 
families know each other--and said, ``Why would you join an 
awful organization like the Islamic State?''
    What he said was, ``How dare you talk to me about human 
rights and democracy when you people in the West did nothing to 
help us when we were being bombed and ravaged by the brutal 
Assad regime--how dare you lecture me.''
    That is what I mean, Congressman. We have to deal with the 
root causes of the conflict in a place like Syria or a place 
like Iraq.
    Mr. Zeldin. Well, you know, Ambassador, the--I don't know 
if we really have enough--if there is enough patience where 
eventually we are going to be able to turn the tide on ISIS. I 
think that we all need to be much more on our game and when I 
say ``we'' I mean, obviously, not just the United States of 
America.
    Now, President Obama doesn't have the military experience 
that his two-star general on the ground has. You know, no 
disrespect to him. President Bush before him, President Clinton 
before him, you know, they don't have six, seven tours under 
their belt of commanding troops on the ground.
    Right now, we have thousands of American service members on 
the ground in Iraq. We had generals before our Foreign Affairs 
Committee hearing last week and we were asking what kind of 
flexibility does that two-star have on the ground. We asked if 
he knows where Abu Bakr al-Baghdadi is and if he can send a 
Navy SEAL team to execute a well-planned mission at night under 
the cover of darkness to take out the leader of ISIS; or if 
there was great actionable intelligence where we knew where 
there was, you know, a boatload of computers, for example. We 
asked what kind of flexibility does this two-star general have, 
and the general's answer back to me was reading a paragraph 
essentially saying that the two-star general can make a 
recommendation.
    Now, when I am at events around my district and elsewhere 
and I say who is in charge of the surge in Iraq at the 
beginning of 2007, everyone says Petraeus, Petraeus, Petraeus.
    How many of you know who the two-star general is who is in 
charge of our forces on the ground today?
    I have asked that question to Members of Congress and they 
don't know the answer to that, and that two-star general 
doesn't have the flexibility that they need to accomplish their 
mission to defeat the threat.
    Now, everything is being micromanaged in the White House. 
They send an authorization for the use of military force to 
Congress. We are expected to sign off on it to send our service 
members overseas.
    Right now, the 82nd Airborne Division is preparing to go to 
Iraq. We want to know that we are sending them off to succeed 
and not fail and to actually defeat the threat.
    So what may be happening right now, you know, you might 
have examples in Iraq, for example, of where we are degrading a 
threat, taking out some of their command and control, and 
killing some of their bad guys.
    We need to kill ISIS. We need to destroy them. The whole 
degrading thing--if we measure success whether or not we kill a 
few of the bad guys but meanwhile their ranks continue to 
grow--they become billions of dollars richer.
    Meanwhile, we are negotiating a nuclear arms race--a 
nuclear deal with Iran--that might trigger a nuclear arms race 
in the Middle East.
    I am concerned that this President's strategy is not 
evolving quick enough to actually defeat the threat and the 
people on the ground don't have the ability that they need to 
take the action that will actually take out leadership when the 
opportunity presents itself.
    I asked that general to clarify. I was asking him a 
different question and, again, he was reading the same exact 
paragraph that all he could do was make a recommendation.
    So here we are--we are facing a real threat that if we 
don't defeat them overseas--we will be facing them here at 
home. We are literally--over the course of the last few weeks 
we have gone after people who are now becoming self-radicalized 
U.S. citizens who consider themselves to be citizens of the 
Islamic State.
    I believe that the President's strategy needs to evolve. We 
know what the threat is. Now we need to take it out.
    I yield back the balance of my time.
    Mr. Poe. I thank the gentleman from New York.
    I want to thank Ambassador Ford, and Dr. Phares, glad to 
see that your flight finally made it. We are in the middle of a 
vote on the House floor. It is one vote and members have left 
and I assume they will come back.
    But we will start--we will have your testimony, Dr. Phares, 
and Madam Rajavi's testimony when that vote is over with.
    Ambassador Ford, you do not need to stay. I don't want to 
hold you up. Probably that is not a good word to use. As a 
former judge, I shouldn't use the word hold up, and you are 
welcome to stay or leave, whichever you prefer.
    But we will be in recess until the vote is over with--5 
minutes after the vote is over--and then we will have the 
testimony from our other two witnesses. So the subcommittee is 
in recess.
    [Recess.]
    Mr. Poe. The subcommittee will come to order.
    We have two other witnesses to testify. Ms. Maryam Rajavi 
is the president-elect of the National Council of Resistance of 
Iran.
    Ms. Rajavi has appeared before many national parliaments in 
Europe and has published a book entitled ``Women Against 
Islamic Fundamentalism.''
    We also have Dr. Phares. Once again, thank you for getting 
here no matter what it took. Dr. Phares is the co-secretary 
general of the Transatlantic Legislative Group on 
Counterterrorism.
    Dr. Phares is also a professor of global strategies in 
Washington and has been an advisor to the U.S. House of 
Representatives Caucus on Counterterrorism since 2007. And 
before our next witness testifies, I would ask that all 
spectators be seated in the courtroom or in--sorry, that was a 
slip from the old days--in the committee room--I used to be a 
judge--in the committee room. So spectators be seated, please, 
or leave the court--or leave the room. Thank you.
    I think we have the electronics working, and Madam Rajavi, 
we welcome you to the Subcommittee on Terrorism, 
Nonproliferation, and Trade.
    I don't know if you heard that or not but welcome to the 
Subcommittee on Terrorism, Nonproliferation, and Trade and the 
subcommittee is ready to hear your testimony.

   STATEMENT OF MS. MARYAM RAJAVI, PRESIDENT-ELECT, NATIONAL 
                 COUNCIL OF RESISTANCE OF IRAN

    [The following testimony was delivered via teleconference.]
    Ms. Rajavi. Mr. Chairman, ranking member, distinguished 
members of the committee, thank you for giving me this 
opportunity to talk about this issue.
    Today, Islamic fundamentalism and extremism under the name 
of ISIS or Shi'ite paramilitary groups have turned into a 
global threat.
    Islamic fundamentalism emerged as a threat to peace and 
security when Khomeini stole the leadership of a popular 
revolution in 1979 and established a religious dictatorship.
    The Iranian regime has served as the main source of this 
ominous phenomenon in the region and across the world. The 
primary objective of Islamic fundamentalists, including ISIS, 
is to establish an Islamic caliphate and enforce Sharia law.
    They recognize no borders. Aggressiveness and violence are 
two common features of Sunni and Shi'ite extremists. As such, 
searching for moderates among them is an illusion.
    In 1993, we published a book, ``Islamic Fundamentalism: The 
New Global Threat,'' warning about this threat and identifying 
its epicenter in Tehran. We said the mullahs sought to obtain 
nuclear weapons, to export fundamentalism and guarantee their 
own existence.
    Unfortunately, little if anything was done to prevent the 
export of fundamentalism. Experience shows that in the absence 
of a firm policy vis-a-vis Tehran regime, there will be 
destructive consequences.
    Unfortunately, failure to stop the Iranian regime's post-
2003 meddling in Iraq which led to occupy that country and 
further spreading fundamentalism.
    Similarly, crimes committed by Bashar al-Assad in Syria and 
the massacre and exclusion of Sunnis in Iraq by Maliki coupled 
with Western silence empowered ISIS. I emphasize that the 
mullahs' regime is not part of any solution to current crisis. 
It is, indeed, the heart of the problem.
    The people of Iran, indeed, call the mullahs' regime 
godfather of ISIS and other fundamentalist groups. The ultimate 
solution to this problem is regime change by the Iranian people 
and resistance.
    This regime is extremely fragile. As evident during the 
2009 uprising, the overwhelming majority of the Iranian people 
demanded regime change. The regime's show of force is hollow 
and a result of weak Western policy.
    Owing to the pivotal role of the People's Mojahedin 
Organization of Iran as a democratic Muslim movement, the 
Iranian resistance has established itself the antithesis to 
Islamic fundamentalism. We believe in separation of religion 
and state, gender equality, respect for rights of religious and 
ethnic minorities, a democratic and non-nuclear Iran. The 
following practical steps are necessary to achieve this goal.
    One, expel the Quds Force from Iraq and end the Iranian 
regime's influence in that country.
    Two, enable full participation of Sunnis in power sharing 
and arm Sunni tribes to provide security for their communities.
    Three, assist Syria's moderate opposition and people to end 
Assad's regime and establish democracy in that country. Four, 
recognize the Iranian people's aspirations to overthrow the 
mullahs and ending inaction vis-a-vis the gross human rights 
violations in Iran.
    Five, provide protection for and uphold the rights of 
members of Iran's organized opposition, the PMOI, in Camp 
Liberty in Iraq.
    Six, empower the true democratic and tolerant Islam to 
counter fundamentalist interpretations of this religion.
    And seven, block all pathways for the mullahs' regime to 
acquire nuclear weapons.
    But let me finish by a quote from America's first 
President, George Washington: ``The harder the conflict, the 
greater the triumph.''
    Thank you very much, Mr. Chairman.
    [The prepared statement of Ms. Rajavi follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. Thank you, Madam Rajavi.
    We will have questions for you momentarily. But first, we 
will hear from Dr. Phares, and for the record both your 
testimony and Ms. Rajavi's testimony will be made a part of the 
record and you can summarize your testimony, Dr. Phares.

    STATEMENT OF WALID PHARES, PH.D., CO-SECRETARY GENERAL, 
     TRANSATLANTIC PARLIAMENTARY GROUP ON COUNTERTERRORISM

    Mr. Phares. Mr. Chairman, thank you very much for the 
invitation. I would like to thank also the ranking member and 
the members of the committee for organizing this very important 
strategic seminar hearing on ISIS--defining the enemy.
    My testimony has the title ``Identifying the Jihadi 
Ideology and Providing Alternative Strategies to Defeat ISIS,'' 
which I believe is the heart of the discussion on this panel.
    For the sake of summary, I would like to go over the major 
principles I began with, the four points I would like to raise.
    Point number one is about the ideology displayed by the 
Islamic State, its roots, its evolution and ultimately its 
final goals, and the question I raise: Are we dealing with a 
new ideology?
    Is ISIS producing a new ideology, or is it an ideology that 
has been around through various organizations, various 
movements and now has reached a mutation that is allowing ISIS 
to win and win further?
    Point two I am going to raise is about what happens if ISIS 
is unchecked. If the current situation of status quo, which I 
call a moving status quo--take a few villages, they take back a 
few villages despite the destruction of their military 
machine--if that situation continues, what should we be 
expecting in Iraq--in Iraq and Syria, in the region and beyond? 
And maybe beyond is in our homelands, including the United 
States and across the Atlantic.
    Three--there is a current geopolitical problem or a series 
of problems in the confrontation with ISIS nowadays as we 
speak. I would like to offer a very short identification of 
what these two problems are--why we are obstructed, why we are 
not ending ISIS, as many in this House and the Senate and 
European Parliament have been asking.
    And last, what can the United States and its allies do or 
actually, I would say, should do, to defeat ISIS and the 
movements behind ISIS--because ISIS is just a stage in a 
movement that began before and will continue later.
    In my past 30 years of research, in six books focusing on 
future jihad and the evolution of this war of ideas, I have 
made the case that what we are dealing with, particularly since 
9/11--and the 9/11 Commission has been very clear on this--we 
are dealing with an ideology that is producing a movement, not 
a movement that is producing the ideology.
    Hence, I have recommended that the United States, to the 
past administration and this administration and future 
administrations, actually engage in a battle that we have not 
engaged in, which is to respond to the ideology, to actually 
mobilize those forces and civil societies that can respond to 
this ideology.
    And after doing this we can encourage the societies that 
could be and would be freed from ISIS to form an intellectual 
resistance to stop the return of ISIS. Remember, dear members, 
that we were in Iraq. We left Iraq.
    There was an Iraqi army. That Iraqi army was in the Sunni 
areas. So the maximum that our hopes would be right now would 
be for the same forces to go into the same regions, to defeat 
ISIS.
    We have defeated al-Qaeda before. So there is a constant 
phenomenon that keeps bringing the jihadists back, not just to 
Iraq this time, but to Syria and as far as Libya and Yemen and 
north Nigeria.
    I have suggested in my research that, number one, we need 
to identify the ideology but, number two, we need to have a 
coalition with forces that are willing to push back against the 
ideology.
    One cannot win a war of ideas from an American perspective 
against the whole world. We need to have allies, and the most 
important ally should be in the region. The problem has been, 
in the past, that we have ignored them.
    We have partnered with many forces, but I assume and I will 
make the case that we have partnered with the wrong persons, 
with the wrong forces.
    Partnering, for example, with the Muslim Brotherhood. Even 
though this is based on the notion that moderate Islamists can 
be a wall against extremist Islamists--that is what we have 
heard from Washington over the past years--we forget one thing: 
That we do not control what happens.
    If we support the moderate Islamists without making sure 
that they are vetted, that they will move against the 
jihadists, what will happen? And it already happened in Syria; 
when we supported moderate Islamists, they became al-Nusra and 
from al-Nusra they ended up becoming ISIS.
    So we need to have a better, not just vetting system, but a 
better system of ideas upon which we can develop the strategy.
    Last but not least, in my last book, ``The Lost Spring,'' I 
urged the administration and, of course, Congress to act faster 
before the catastrophes hit--that was last March--before ISIS 
takes over half of Syria and one-third of Iraq, before ISIS 
lands in Benghazi and Derna, before the Houthi pro-Iranian 
militias expand. All of this happened since last June.
    If you look at the map--the historical map of these events, 
most of the explosions that we are dealing with happened over 
the past 9 months.
    On the ideological level, it is clear that this group, 
ISIS, has not invented new ideas. The success of ISIS is that 
it has made into reality all the dreams of the previous 
ideologies and previous jihadists.
    What is ISIS in Iraq and Syria? It is the dream of bin 
Laden. He spoke about it--killing infidels: Every single 
jihadist since the '20s has been talking about it.
    The major difference is that this Daesh, ISIS or ISIL has 
been able to do it because of their strength, because of the 
chaos in the region but, I would add, because of our policies, 
which were not preemptive enough nor formed the right 
coalitions at the right time.
    Second, if not checked, ISIS is projected to increase its 
control of the Sunni areas where they are. But that control is 
not going to be only military.
    My concern and the concern of many of my colleagues who 
have been looking at what this organization is doing, number 
one: They are drafting.
    So we are not just talking about individuals who have been 
in al-Qaeda and other places and now adhering to ISIS. They are 
going into cities and towns and drafting. So their numbers are 
supposed to grow.
    My greater concern, dear members, is that they are now 
schooling. They are doing in Iraq and in Syria what the Taliban 
did two decades ago in parts of Afghanistan and in Pakistan.
    They are creating already the next generation, and this is 
not something secret. We don't even need intelligence to know 
that. It is on YouTube.
    We see those kids aged between eight and 12 being schooled 
into ideological madrassas and hence my first conclusion. Even 
if we take back Mosul, if we take back Tikrit, if we take back 
Raqqa in Syria or others would do, my concern is that the next 
generation is being worked on right now. So we need to have a 
strategy with regard the ideological confrontation.
    Third, on the geopolitical problems that we are facing in 
fighting ISIS today I would identify two major obstructions. 
One, definitely, and it responds to my concern: We don't have a 
war of ideas.
    I have reviewed every single piece of what we call in 
Washington a strategic communications campaign, a de-
radicalization campaign. I will be more than happy to expand on 
that when and if needed.
    We are not winning on the ideological level. An argument 
such the one discussed earlier that a jihadi becomes jihadi 
because there is no job--and I am not talking about the 
politics of it, I am talking about the academic dimension of 
it--that argument is not true.
    It has been debunked in the Middle East. When you talk to 
intellectuals in Egypt and Libya and Tunisia and other parts of 
the Middle East, they do not adopt this argument.
    A jihadi becomes a jihadi simply because of indoctrination, 
and the evidence is if you have 1 million individuals in any 
country in the Middle East that are jobless, why would 500 of 
these 1 million choose to become jihadi? What is the 
difference?
    Why wouldn't the 1 million become jihadists? It is the same 
frustration. The others would choose to become revolutionaries, 
reformers, do demonstrations, find a job. They would choose 
many other options.
    Science and research have told us those who have shifted to 
become jihadists, even if they are under duress sociologically, 
have been indoctrinated before.
    There is a chip that was put in their mind by different 
ways that allowed them to take the argumentation of we are now 
jihadists. And, by the way, dear members, the jihadists 
themselves never use the socioeconomic element.
    They would never say, ``I didn't find a job or I was 
frustrated, therefore I became.'' They didn't even use the norm 
of, ``We are against the richer people.''
    Their concern is caliphate or no caliphate. Their concern 
is to win that battle on the ground or not.
    [The prepared statement of Mr. Phares follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. Thank you, Dr. Phares. I let you go a little 
longer. I need time for the members to ask questions as well to 
both of the witnesses. But I thank you for your testimony--Ms. 
Rajavi, your testimony as well.
    I will recognize myself for questions. How is ISIS 
philosophy different from Sunnis', say, in Saudi Arabia or 
Shi'ites' in Iran? First you, Dr. Phares, briefly.
    Mr. Phares. Well, a first difference between all Sunni 
Salafis on one hand and then the Shi'ite jihadists, those that 
Madam Rajavi has mentioned, meaning the Iranian regime and the 
path they are on, they both want the establishment of an 
international universal Islamic empire with different names.
    While the Salafis in general choose the caliphate, the 
Khomeinis use the imamate for historical reasons that we don't 
probably have the time to go over.
    But between ISIS and between the Saudis, the Saudis accept 
they are Salafi in their essence but do accept the 
international system. They have Ambassadors.
    They accept the United Nations, they accept a minimum of 
consensus while ISIS doesn't accept borders, doesn't accept the 
existence of the international system and their acts are a 
result of that.
    Mr. Poe. Ms. Rajavi, same question. How does ISIS 
philosophy differ from the Sunnis in Saudi Arabia or Shi'ites 
in Iran?
    [The following testimony was delivered through an 
interpreter.]
    Ms. Rajavi. So far as the formation of ISIS is concerned, 
it was also the mullahs' regime which helped the creation of 
ISIS. The crimes committed by the Iranian regime and Assad and 
the killing of the Sunnis in Iraq helped the emergence of ISIS.
    Therefore, gaining state power, and it was the Iranian 
regime when there was a state in Iran, created the terrorism as 
a major threat for security.
    But from a philosophical respect, the most fundamental 
element in all fundamentalist groups, whether Sunni or Shi'a, 
they are common on the following.
    They want to force their religion or school of thought, 
establish a religious dictatorship whether under the name of 
caliphate or the absolute rule of the clergy; they do not 
believe in any borders and going after expansion and capturing 
other territories and also believe that those who do not accept 
the Sharia law must be eliminated.
    And I want to stress that there is an antithesis to this 
philosophy and that is a tolerant and democratic interpretation 
of Islam. There is a conflict between ISIS and the mullahs in 
Iran but that is an internal power struggle.
    But despite any differences, the continuation of other 
fundamentalist groups very much hinges on the Iranian regime 
being in power, remaining in power. Terrorism and 
fundamentalism under the name of Islam came to the world scene 
by the mullahs' regime in Iran and when this regime is 
overthrown that will be limited or destroyed.
    And it is interesting that after the emergence of ISIS the 
people of Iran called the Iran regime, the godfather of ISIS. 
Regarding Saudi Arabia, I want to add that ISIS, contrary to 
Saudi Arabia, they do not believe in borders. Therefore, the 
question is not being Sunni or Salafi or whatever.
    The problem is those characteristics which I just 
identified and that is where you will see that despite all the 
differences ISIS is very close to the fundamentalist ruling in 
Iran. Thank you.
    Mr. Poe. Ms. Rajavi, may I ask you a question that you made 
a comment about? How do you see the mullahs in Iran having 
facilitated and helped the ISIS movement?
    How has ISIS been able to expand its influence, its 
philosophy because of the mullahs in Iran? Make that clear, if 
you would, on how there is that connection.
    Ms. Rajavi. As I said, there is a power struggle between 
ISIS and the regime. But at the same time, on occasions they 
have cooperated.
    For example, Zarqawi, the original founder and leader of 
ISIS, received enormous logistic support from the Iranian 
regime and had his bases even in Iran. And I think it was in 
2005 that intelligence security services in Germany exposed 
this connection between Zarqawi and the Iranian regime.
    And also there has been many reports even in the media that 
Bashar al-Assad released many of the ISIS members from prison 
in order to join ISIS. While in their air attacks they have 
never attacked ISIS but the focus is on the moderate opposition 
in Syria.
    So I want to conclude that so far as the mullah's regime in 
Iran is concerned, they are 100 percent supporting Bashar al-
Assad in Syria and therefore all the crimes that are committed 
by the help and support of the mullah's regime has created a 
fertile ground for ISIS to emerge.
    And on the other hand, crimes committed by Maliki at the 
behest of the Iranian regime in Iraq and in particular the 
absolute suppression of the Sunnis has led to empowering ISIS 
to expand itself both in Iraq and Syria.
    Mr. Poe. I will yield 5 minutes to the ranking member from 
Massachusetts, Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    I want to follow up on Ambassador Ford's testimony in terms 
of Dr. Phares. I really want to see if we can get to the root 
of some things, as short as this time is.
    Your main thought was that the ideology is the controlling 
factor--absolute controlling factor that happens. Is that 
correct? I think I got that.
    Mr. Phares. The ideology is what produces them but it is 
not the only element that controls their action. But without 
the ideology they cannot be produced. So the movement can use 
this pool only if it exists.
    Mr. Keating. So the leaders would be pure to that ideology?
    Mr. Phares. Yes. The leaders who are produced by this 
movement, if they are eliminated, that would slow down the 
activity of the movement.
    Mr. Keating. Then here is where I have the problem trying 
to put everything--it is nice to put everything in one box. I 
wish we could in this instance.
    But if it was absolutely controlling, how do you explain 
then that ISIL will then take cultural artifacts and it will 
destroy them because they are uncompromising, as Ambassador 
Ford said?
    And they are ideologically centered, so they are destroying 
those cultural artifacts that aren't inconsistent with their 
ideological beliefs. But if they are so pure why are they 
taking these things then and selling them, preserving them to 
get money?
    Isn't that more the actions of a criminal enterprise too? I 
mean, it is not as simple. It is complex and I think that is 
part of it.
    If we focus on one narrow box we are going to miss the 
whole picture. But there is an element of that, isn't there, 
with ISIL?
    Mr. Phares. Mr. Congressman, I think it is the other way 
around. If I may not disagree but readjust the argument. In 
past similar situations with totalitarian armies that were 
supposed to go only by ideology, and I am talking about World 
War II, should it be the Nazi armies or the Soviet armies, you 
can't get more totalitarian and disciplined, they have done the 
same.
    Rank and file could go against the ideology and the 
instructions that are----
    Mr. Keating. These are the leaders that are making these 
decisions.
    Mr. Phares. The leaders of the ISIS movement can also be 
corrupt. There is no doubt about it, and there were leaders in 
the Communist movement in the past during the Cold War and 
guerilla forces that were corrupt.
    My point is, we have to give what to Caesar is to Caesar 
and, of course, what the corrupt are doing is their natural 
behavior. I am not claiming that the ideology will only produce 
a perfect behavior.
    But what I am claiming is that without the ideology you 
cannot have jihadists. Then another argument would win.
    Mr. Keating. But there is--they are related and they can't, 
I don't think, be ignored. Ambassador Ford--I am sorry you 
weren't here and thank you for coming and making the trouble 
with plane flights and all--but Ambassador Ford, upon being 
pressed in questioning, became clear there are other social 
factors that are a part of this and to me, the chairman's 
experience in law enforcement as a judge, mine as a prosecutor, 
there are social issues that breed criminal activity.
    It is not--there are people in the same social settings 
with the same challenges. They don't become criminals. But 
there are some that are.
    Mr. Phares. That is true.
    Mr. Keating. And more so than not and you can't say that 
that is not a factor even. So I think the social conditions--
and I am sorry you weren't here to see--hear Ambassador Ford's 
testimony--but they are a factor as well. It is not pure 
ideology.
    And I don't deny there is ideology. That is a given.
    Mr. Phares. I hear you, Congressman. There is a point, of 
course, in socioeconomics for everything else, not just for the 
jihadists but for every ultra nationalist movement.
    Let me draw your attention to the fact that Egypt in 2013, 
while the argument was that people were adhering to the Muslim 
Brotherhood because they were not finding jobs or because of 
the social conditions, when on June 30th, 2013, 33 million 
Egyptians, 80 percent of whom are under the level of poverty, 
marched against the Muslim Brotherhood, that defeats the logic 
that it is only socioeconomic. But I do agree with you that 
socioeconomics are part of it.
    Mr. Keating. That is important because I think if we are 
going to fight them we have to fight them in so many different 
levels.
    And one of the things you brought up that I thought was 
very important was our messaging and how we can do a better job 
messaging, and I think we have to incorporate the Muslim 
community back home and have their voices be trusted voices in 
opposition.
    But if you could comment just briefly on what we could do 
not only in the U.S. but in Europe and Turkey, you know, in 
approaching this problem. I gave you a lot in a short time so I 
am sorry.
    Mr. Phares. Absolutely. Thank you again.
    I did 5 years of research on our messaging, both 
administrations, the bureaucracy in general. The problem is, 
first of all, we have to vet who we are working with in terms 
of message, meaning we need to work with NGOs who have had an 
experience on the ground in the region and have an experience 
here and can be diverse as much as possible.
    Even within our own communities when we are dealing with 
organizations, we cannot say this one organization represents 
the entire community unless we have referendums in this 
country, which I don't think under the Constitution we do.
    So I agree fully with you the next stage to push back 
against radicalization is from within these communities to have 
NGOs that are vetted and that they are willing to push back 
against the doctrine.
    Mr. Keating. Thank you. I am over my time but I think this 
is a crucial issue that we have to address. Thank you.
    Mr. Poe. The Chair recognizes the gentleman from New York, 
Mr. Zeldin.
    Mr. Zeldin. Thank you, Mr. Chairman.
    Mr. Keating was just asking about the socioeconomics. My 
question--I just want to get to the heart, Doctor, of what is 
the most effective way to get inside the head of ISIS and 
demoralize them?
    Mr. Phares. Well, that is a different battle, Mr. 
Congressman, from the interception I suggested but I will 
answer both.
    Pushing back against an individual who has already been 
radicalized is a much bigger mission. It would need a much 
larger mobilization.
    It needs for ISIS elements to feel that the people are 
against them and that the international community in the region 
are against them, so in response to what the congressman has 
mentioned about strategic communication, we need to do a better 
job.
    Our Arab broadcast, our Persian broadcast, that the 
Congress funds here, has not been doing, in my own view, enough 
to push back against these organizations.
    But I do propose that before these individuals are 
radicalized, this is where we need to interfere. When kids are 
10 and 12 and 13, in a short 10 years, as in Afghanistan or as 
in Iraq and in Syria, they are the new ISIS.
    So we need to add and supply strategies that would help 
first women, their mothers and teachers, and the NGOs to be 
part of this enterprise, not just on the military level, not 
just on the economic level, but on the educational level.
    Mr. Zeldin. What is the most effective way, though, for 
those who are currently part of ISIS who are beheading 
individuals in their region--what is the best way to get into 
the head of ISIS and demoralize them?
    Mr. Phares. Congressman, it is only a massive military 
defeat of large areas controlled by ISIS.
    Mr. Zeldin. Thank you. I mean, I totally agree with you. I 
mean, we could spend a lot of time here, you know, talking 
about other elements of what we are up against and we can 
spend--we can have a hearing dedicated to talking about social 
economics.
    We can all admit that maybe there is something to do with 
the economy. That might have something to do with it. But the 
best way to get into the head of a member of ISIS is to put a 
round in it--is with lead.
    Honestly, they have to be defeated. That is what we are up 
against. And we can have a tremendous amount of patience 
waiting for someone else to fill this vacuum and step up in the 
region.
    But listen, when you want to be the leader of the free 
world, you know, American exceptionalism isn't about figuring 
out a way to get everyone a job. You know, King Abdul of 
Jordan, you know, when one of their pilots is executed isn't 
filming a video to ISIS and the rest of the world on how we 
need to get them more jobs.
    You know, Israeli Prime Minister Benjamin Netanyahu, when 
he is giving a speech about, you know, what we do with our 
enemies around the world it is not that we need to give them 
more wealth.
    I mean, we have to confront this threat and, honestly, if 
you want to--if you want to demoralize them, if you want to 
defeat ISIS--it is not going to be done through social programs 
of giving people jobs and more wealth.
    The world needs America to lead. Now, it is our 
responsibility here to ensure that we are never setting our 
services members up to defeat. I do not support occupations, 
enduring ground operations.
    But there is a big difference when you are talking about 
Navy SEALS, Delta Force, Green Berets, Marines, Army Rangers 
who in the middle of the night under the cover of darkness they 
are going to show up at areas where ISIS is operating, where 
ISIS is sleeping, and they are going to execute well-planned 
missions that is going to take out high-value targets and 
capture actionable intelligence.
    Our enemies do not respect weakness. They only respect 
strength, and strength cannot be shown just by finding jobs for 
more people who are members of ISIS. It is--it is divorced from 
reality to spend time here talking about social economics as if 
that is the root of what we are up against and that is the way 
to turn the tide.
    You know, we are all saying it is all part of it. That 
might be why some people are getting involved in ISIS. It might 
have something to do with economics. That is not going to 
eliminate the threat.
    Now, Madam Rajavi, listening to you speak and mentioning 
the Green Revolution back in 2009, and we think about the 
undemocratic elections that took place in Iran, at that point 
when the economy was doing better and oil was $100 a barrel, 
and millions of Iranians were rising up to take control of 
their country, and our President was saying that that was none 
of our problem.
    Fast forward today when the economy is worse and oil is $50 
a barrel and people like you are showing a leadership, willing 
to take control of your own destiny.
    I honestly do not know whether or not my President is on 
the same exact team that I am because there are individuals 
like you who are willing to rise up and take control of your 
country's future and destiny with a vision, whether it is Iran 
or Syria or elsewhere, to bring stability to the Middle East.
    I commend you for being here and for leading your effort. I 
yield back the balance of my time.
    Mr. Poe. The gentleman yields back.
    The Chair recognizes the gentleman from California for 5 
minutes.
    Mr. Sherman. Thank you, Mr. Chairman. I agree with the last 
gentleman and point out that on the issue of socioeconomics not 
being the driving force, keep in mind 19 of the 20 hijackers on 
9/11 were from a rich oil-rich country and were middle class in 
their background. They did not take over those planes because 
they couldn't support their families.
    This hearing is about defining the enemy and the President 
is attacked by some because he doesn't have the courage to give 
ISIS the ideological victory that ISIS wants. ISIS wants to be 
called the Islamic State.
    They want to be regarded as Islamic. They want to be 
regarded as a state. I think they are heretic terrorists, not 
Islamic scholar statesmen, and so I do not think the President 
should be criticized for not calling them Islamic when they are 
heretics, and not calling them a state when they are 
terrorists.
    Also, the topic of this hearing is defining the enemy and I 
think the greatest enemy is the Shi'ite alliance. I have said 
that before in this room, the alliance of Iran, Assad, 
Hezbollah, now the Houthi, has killed more Muslims, killed more 
Americans and poses a greater threat of mass destruction than 
does ISIS.
    I am glad to have Ms. Rajavi here. I want to thank the MEK 
for revealing to the world the Natanz nuclear plant. There may 
have been a few members of the intel committee who knew that 
before the MEK told us.
    But speaking on behalf of roughly 400 Members of Congress, 
thank you for telling Congress as well.
    Now, you personally promote a very tolerant moderate view 
of Islam. You are an advocate of the separation of religion and 
state, and you have been an advocate for human rights and 
women's rights.
    Of course, your country is ruled by very rigid laws that 
call for stoning people and chopping off limbs. ISIS does the 
same thing supposedly in support of a different version of 
Islam--Iran being Shi'ite, ISIS being Sunni.
    Why is their understanding of Islam the same, or at least 
similar to our eyes, and why do both the rulers of Iran and 
ISIS enforce their beliefs through these gruesome measures? If 
you could respond.
    I am sorry. We are unable to hear you. I don't know if 
our----
    Mr. Poe. Technical difficulty here.
    Mr. Sherman [continuing]. Technical people can help that.
    Ms. Rajavi. Thank you very much, Congressman Sherman. You 
touched upon a very important issue. You said that Islamic 
fundamentalism of the kind of the Shi'ite is even more 
dangerous than the Sunni one before anything else.
    The reason is that there is a state empowered in the 
dimension of the mullahs' regime in a country--in a vast 
country with so many resources--financial resources--and it is 
supporting these Shi'ite fundamentalist groups financially, 
ideologically and logistically in every field.
    Therefore, they are much more dangerous. I agree with you. 
Regarding your question as to why they resort to so much 
violence to pursue their objectives I should tell you that the 
reason is they can only survive through absolute terror and 
fear, and this has been the trend of over 30 years of ruling 
fundamentalists in Iran that now has expanded to Iraq, Syria, 
Yemen, Lebanon and other countries, and other fundamentalists 
take lessons from the Godfather.
    Let us not forget that the mullahs in Iran are implementing 
more than 70 kind of different tortures--cutting off limbs or 
gauging eyes, executing pregnant women and all the heinous 
crimes that one might imagine--and now ISIS and other 
fundamentalists are really imitating from the mullahs in Iran.
    Therefore, I reiterate once again that the ultimate 
solution is, one, evict, dislodge the Iranian regime from Syria 
and Iraq and Yemen and, even more important, regime change in 
Iran.
    The fundamentalist regime in Iran must be changed because 
this regime has created a political umbrella and a source of 
ideology and logistical and financial support for the 
fundamentalists and terrorists in today's world.
    If it were not due to the destructive influence of the 
Iranian regime, we would not face the situation today in Iraq, 
Yemen and Syria and they would have stability.
    Let us not forget that by regime change in Iran, those 
militia under the command of the Quds Force, like the Hezbollah 
in Lebanon or Ansar Allah of the Houthis in Yemen, and other 
various groups in Iraq, would be eliminated without having 
their support and they would not have the vital environment to 
survive.
    Mr. Poe. Does the gentleman yield back his time?
    Mr. Sherman. I would love to ask another question but I 
have gone over. I yield back.
    Mr. Poe. The Chair recognizes the gentleman from New York, 
Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    Doctor, you had--we got called out for votes--but you were 
making three points when I came in, and number two was you made 
reference to ideological confrontation I presume toward the 
goal to delegitimize ISIS. Could you elaborate further?
    Mr. Phares. Thank you, Mr. Congressman.
    The first goal is to delegitimize them but there is a more 
important goal. It is to encourage and mobilize civil societies 
where ISIS controls so eventually, when ISIS control is 
eliminated by military means, there will be no new ISIS.
    My whole point to the panel is that ISIS is a new al-Qaeda, 
al-Qaeda a new Ansar al-Sharia. These are organizations. Every 
time there is a problem and a suppression, they come back.
    So the ideological battle is not just to deter them. It is 
to create a resistance inside these societies to make it 
impossible for a new ISIS to emerge.
    Mr. Higgins. So you have to confront the ideology in order 
to stop the evolution of these groups from proliferating. So 
how is that done?
    Mr. Phares. It is done in the field where it has been 
fought. The message that ISIS and the jihadists are producing 
and, of course, sending through Internet and--the problem is 
not Internet and Facebook--the problem is who is responding to 
them. We need to partner with and work with leaders and 
ideologues such as the spiritual leader of Sunni Islam. I just 
came back from Egypt a few weeks ago.
    I met with Sheikh Azhar, the equivalent of the Sunni Pope. 
We had a long conversation. He is ready to mobilize against 
this way of thinking.
    There are many clerics around the Muslim world. They are 
ready to move. Their problem--there is no coordination among 
themselves and us.
    Mr. Higgins. With all due respect, we hear this all the 
time but it never happens. You know, the United States, whether 
you agreed with our involvement in Iraq, you know, the best 
that we could hope for was taking out a bad guy and creating a 
breathing space within which Shi'a, Sunni and Kurds could 
develop some kind of social contract and live peacefully 
amongst one another.
    Obviously, that didn't happen. You know, some would say 
that ISIS is just trying to get their country back in Iraq 
because the origins of ISIS, clearly, are de-Baathification and 
the dissolution of the Iraq army under Saddam Hussein, who were 
Sunnis.
    And maybe it is second generation, but as you talk about 
the continuum of this kind of extremist activity, their roots 
are somewhere. I suppose the question is, you know, where is 
the end and how do you achieve that?
    You also said that jihadis become jihadis by indoctrination 
and I know there was some discussion here about whether or not 
socioeconomic factors contribute to that.
    I suppose they do to a degree. That is certainly not the 
only vulnerability to radicalization. But I would suggest--I 
would argue that some of it is.
    You know, I think the American people become very 
frustrated because we, as the indispensable nation, are called 
upon to try to intervene to resolve these problems. But yet at 
its core, these problems have to be resolved internally, and 
the Middle East is a very pluralistic society.
    There is a very pluralistic society. But there is a zero 
sum game mentality and in order for somebody to win somebody 
has to lose. And that is why Bashar al-Assad in Syria enjoys 
partnerships with people he has no interest in.
    Just because they are minorities, the Sunnis take over, 
they feel as though they will get slaughtered and therefore 
they align themselves with Bashar al-Assad so that they don't 
get slaughtered.
    There is no recognition of minority rights. You know, in 
game theory there is also what is referred to as a variable sum 
game and that means that there can be multiple winners. But in 
order to promote a peaceful path toward an existence of 
peaceful coexistence there has to be pretty profound 
compromises.
    You know, I referenced before in Northern Ireland they had 
a history--a horrible history of Protestants and Catholics 
killing each other. No troops were deployed by the United 
States in Northern Ireland.
    But both sides, in order to participate in the Good Friday 
Agreement of 1998, had to denounce violence publicly--
paramilitaries on both sides--the Irish Republican Army and the 
Protestant paramilitaries--and they actually had to participate 
in the destruction of their arms with an international 
tribunal.
    And, you know, my point is you are either going to get 
democracy through peaceful means or, in the absence of that, 
civil war. And the United States fought a civil war where 
650,000 to 700,000 people were killed at a time where our 
country's population was about 30 million people.
    I mean, that is very, very significant. But that is the 
consequence of not being able to resolve your problems 
peacefully. So as we, you know, look for solutions with these 
very clear maps of delineation as to who is responsible, but 
this is--you know, this is probably pretty accurate. There is a 
lot of duplicity going on there.
    You know, Tom Friedman, the author and New York Times 
columnist, once said, ``Is Iraq the way it is because Saddam is 
the way he is, or is Saddam the way he is because Iraq is the 
way it is?''
    And I think unless and until these Middle Eastern countries 
recognize, you know, that there is something beyond the horizon 
than hating one another and killing each other in the name of 
God then we are just going to be at this table and these panels 
for years and years to come.
    There has got to be some enlightenment and that is going to 
require leadership, and it is going to require leadership in 
the Arab Muslim world.
    Mr. Poe. And you yield back your time. And without 
objection, this chart that was hastily made by the Chair, will 
be made part of the record and with--I ask unanimous consent 
that Mr. Davis, who is not a member of this committee, be 
allowed to ask questions and if there is no objection then the 
Chair recognizes Mr. Davis from Illinois.
    Mr. Davis. Thank you very much, Mr. Chairman, and I want to 
thank you for your indulgence. Indeed, I am not a member of 
this subcommittee but I do have interest in the subject matter, 
and I want to thank you and I thank both of our witnesses for 
being here.
    Ms. Rajavi, over the past 30 years the United States has 
been drawn into some serious diplomatic and military dead ends 
in the Mideast by mistakenly backing individuals and 
organizations claiming popular support which turned out to be 
largely exaggerated and somewhat manufactured.
    Would you please tell us about the role of the National 
Council of Resistance in Iranian civil life and its place in 
current Iranian political life, and how do you measure your 
popular support in Iran?
    Ms. Rajavi. With absolute repression it is not possible to 
go to the vote of people and see what the people really think, 
and the mullahs will never accept a free election.
    Therefore, the yardstick or the gage for the popularity of 
this movement, one, is its persistent continuation of its 
principles despite the absolute repression and having lost 
120,000 of its members and sympathizers who were executed by 
the regime.
    I show you now this book, which includes the names of some 
20,000 members of the resistance movement from different strata 
of the Iranian society. So you can imagine that collecting such 
information during repression is very difficult.
    But another indication is the fear of the regime and its 
engagement in demonizing the Iranian resistance as another 
indication of the strength of the resistance and its 
popularity.
    As you may know, in all the diplomatic correspondence that 
they have their main demands from their interlocutors is to 
restrict the activities of our movement and any affiliation 
with our movement in Iran is equal to execution.
    In the 2009 uprising, the regime's officials acknowledged 
publicly that those demonstrations were organized by a 
Mujahideen network, the MEK network in Iran, and this popular 
support has enabled this movement also to have access to most 
secret information of the Iranian regime--on nuclear, on 
missile and what the Quds Force is doing in the region as well 
as the human rights violations in Iran.
    We have always said to the mullahs' regime that if you 
really claim that our movement has no popular support, let us 
have a free election under the auspices of the international 
community and let us see who has the popular support of the 
Iranian people. But let us not forget that a free election for 
the mullahs is a red line.
    Mr. Davis. Thank you very much.
    Dr. Phares, do you believe that the United States should be 
cooperating militarily with Iran in combating ISIS in Iraq and 
Syria, and if yes, how and to what extent? Is it direct 
cooperation or indirect cooperation through the Iraqi 
Government and if no, why not?
    Mr. Phares. Well, I will begin by the answer no, and 
certainly no, Mr. Congressman. I will give the argument that 
unless there is a change in the government and in the 
direction, at least, of Iranian policy in the region, 
cooperating with the regime that is waging a campaign in Iraq, 
in Syria, in Lebanon and now in Yemen against five or seven of 
our own allies and probably soon to be trying to destabilize 
Bahrain, it would be a strategic mistake.
    So I am not against the principle that the United States 
would cooperate with anybody to defeat the terrorists. But if 
we cooperate with the Iranians as they are engaged militarily 
against our own allies, and there is something even more 
important--every inch of land taken away from ISIS, which is 
the good thing, all depends on who is taking away that inch 
from the organization.
    If the Iranian-controlled militias or Iranians with 
different aspects in Iraq are taking over, we would be 
replacing one problem with another problem.
    So my answer is, clearly, no to that cooperation unless we 
see a change or a reform and, clearly, we have not seen yet a 
Gorbachev-like perestroika or glasnost inside Iran for the time 
being.
    Mr. Davis. Thank you very much and, Mr. Chairman, again, I 
thank you for your indulgence and I yield back.
    Mr. Poe. I thank the gentleman. Without objection, 
unanimous consent the Chair will allow another individual who 
is not a member of this committee to ask questions. Ms. Chu 
from California is recognized.
    Ms. Chu. Thank you, Mr. Chair.
    I would like to address these questions to Ms. Rajavi. I 
would like to ask about Camp Liberty. Camp Liberty is a 
military base that has become a permanent home for over 3,000 
Iranian refugees.
    But the conditions there are poor and freedom is very 
severely restricted. Worse, there are reports that the Iraqi 
Government is blockading the base, preventing food, water and 
medicine from arriving.
    Combined with the restriction on travel, this blockade has 
led to at least 25 deaths, the most recent being Mr. Jalal 
Abedini on April 17th.
    Can you give us a sense of living conditions in Camp 
Liberty in regard to food, medicine and decent housing?
    Ms. Rajavi. Our prime concern about the residents in Camp 
Liberty is their safety and security. That is the main problem 
that they are facing in Camp Liberty now to the extent that 
since the protection of the residents was transferred from the 
United States to Iraq 116 have been killed, seven have been 
taken hostage and the residents are denied timely access to 
medical care.
    And for this reason, as you have just mentioned, 25 people 
have lost their lives while there was the possibility to save 
their life.
    I think it was 116 who have been killed during these 
attacks by Iraqi forces; they have no freedom of movement and 
enormous restrictions have been imposed on them.
    Just to give you one example, Camp Liberty's electricity is 
not connected to the city grid and since the Abadi government 
took office there has been no changes in the condition and 
there is still a prison-like situation for the residents.
    And I think the new government must recognize Camp Liberty 
as a refugee camp and remove all the inhumane restrictions 
which have been imposed on the camp and put an end to the daily 
harassment of the residents.
    In particular, it is very important that the camp 
management be changed because they are the same people--the 
people who are the camp management are the same people who were 
engaged in the massacre and the killing of the residents in the 
past attacks.
    And as you know, the United States Government had made a 
written commitment to provide safety and security for these 
people but that obligation has been violated and I think Camp 
Liberty should be really put under the protection of the United 
States or at least their personal weapons to be given so that 
if they are attacked by the militias or paramilitary groups 
that they could defend themselves.
    And I expect that the United States upholds its commitment 
to regular monitoring of Camp Liberty.
    Ms. Chu. Let me ask now about--do you have any confidence 
in the current government to improve conditions and what is the 
future for the people at Camp Liberty? Is there a U.S. role?
    Ms. Rajavi. I think the U.S. Government can really demand 
and urge the Iraqi Government to uphold its obligations.
    So far, the government has not done anything that we could 
really trust that they will do the right thing, and as I said 
that the people are still living in a prison-like situation in 
Camp Liberty as prisoners.
    That is why I said that the new government should recognize 
Liberty as a refugee camp and remove all the restriction 
imposed on the camp and end the harassment of the residents.
    And I want to reiterate that it is very vital to change the 
camp management and do not allow the mullahs' regime to send 
its agents for psychological torture of the residents and 
laying the ground for another massacre in Camp Liberty. These 
are actions that they can take and I believe that the United 
States Government is in a position to really call on and demand 
from the Iraqi Government to uphold this obligation.
    Ms. Chu. Thank you. I yield back.
    Mr. Poe. I thank the gentlelady.
    We have also been joined on the dais by the gentlelady from 
Texas, Ms. Jackson Lee, and without objection and unanimous 
consent that she will be allowed to question the witnesses. You 
have 5 minutes.
    Ms. Jackson Lee. Mr. Chairman, thank you very much for your 
kindness and let me add my appreciation to both you and Ranking 
Member Sherman and all the members on this panel for their 
courtesies extended and to indicate that this is a very 
historic hearing because as far as my memory can recollect, Mr. 
Chairman, this is one of the few times that the voice of the 
opposition of the Government of Iran has been part of an 
official discussion.
    And that is very important for the American people and for 
us to formulate the right kinds of policies. Many of us worked 
for long years to ensure that this great leader, who happens to 
be a woman, would be able to speak and would be able to lead 
the MEK and be removed from the terrorist list.
    There were many machinations and court decisions and we 
have moved to a decision which I think reflects the fairness of 
this nation. Might I also say that the importance of hearing 
both views in this backdrop of ISIS and the backdrop of the 
merging of the caliphate--it is from Syria to Iraq to Iran is 
very important.
    As we watch Yemen, and we watch Libya, we know that we have 
to come together around a full understanding of the influence 
and impact of ISIS.
    So let me say to Ms. Rajavi, who has been a continuing 
leader and someone who has opened her information cycle, if I 
will, to ensure that information be given. She doesn't hide 
information. She has been open and forthright.
    So I would like to pose these questions. We are trying to 
discern ISIS the enemy and I would just make the comment that 
any organization that beheads and uses the kind of horrific 
video to intimidate certainly is a defined enemy, from my 
perspective, and all those who contribute to the growth and 
continuation of ISIS, using them as a front for the dastardly 
deeds they want to do, we have to review.
    We have to look at Syria. We have to look at what is 
happening in Iraq and we certainly must look at what is 
happening in Iran.
    But I do want to say as well in the nuclear 
nonproliferation agreement framework, which we don't have, I 
still believe that we should look at that in a way that we look 
and analyze first before we condemn and we take the input that 
Members of Congress will hopefully be able to give and we look 
forthright to ensure that Iraq knows--that Iraq knows we mean 
business but, more importantly, this agreement that may come 
about with Iran is to enhance the security of the United States 
of America.
    To Ms. Rajavi, I would like to ask the question that you 
promote a very tolerant and moderate view of Islam. You are an 
advocate of separation of religion and state and you also favor 
women's rights and human rights.
    Is it true that Iran is upholding laws that call for the 
stoning to death of people and the chopping off of limbs?
    Can she hear that I was directing that question?
    Mr. Poe. There is a satellite involved in this 
communication and it takes a while, plus the translation.
    Ms. Jackson Lee. Thank you.
    Ms. Rajavi. Yes, precisely. I should say that what the 
mullahs really want under the pretext of Islam are doing--they 
are doing it under the pretext of Islam, but it has nothing to 
do with Islam.
    They stone people, amputate limbs and they rape people and 
so far, as I said, 120,000 of the best children of the Iranian 
people have been executed under the name of religion and Islam.
    But I should make it clear that Islam is a religion of 
compassion and freedom and rejects fanaticism, dogmatism and 
dictatorship. Congresswoman Jackson Lee as you mentioned, we 
believe in separation of religion and state. We advocate a 
tolerant and democratic interpretation of Islam, which is the 
genuine Islam, and we believe that it is the vote of the people 
that will count.
    In our view, there is gender equality between men and 
women. While, you know that fundamentalists are misogynists and 
whatever is based on compulsion is contrary to Islamic 
teaching.
    There is no compulsion in religion, in what you wear and 
how you think, and as the Koran said, there is no compulsion in 
religion. Sovereignty and the vote of people is the treatment--
please, go ahead.
    Ms. Jackson Lee. Thank you. I am going to make these very 
brief because I know our time has ended. I just simply know 
that in the 1979 revolution the Iranian intellectuals called 
for democracy and human rights.
    You just mentioned Islamic fundamentalism, which Iran seems 
to be the epicenter of and therefore promoting terrorism. You 
might want to comment how you think this happened to Iran and 
then maybe the top challenges that we must face.
    If we identify ISIL as an enemy, what are the challenges 
that relate to freedom, democracy, peace and security that we 
all want to see? Let me finish by saying that if you have any 
comments about Camp Liberty and those continued attacks if you 
want to include that as to how we can work to better stop that, 
and I would appreciate the chairman's indulgence and I thank 
you very much for your answers to these questions.
    Ms. Rajavi. You are absolutely right. The people of Iran 
wanted freedom and democracy from the revolution and they 
continue to yearn for freedom and democracy. But, 
unfortunately, Khomeini stole the leadership of the revolution 
which was for freedom and democracy and imposed a 
fundamentalist regime which by eliminating all freedom and 
eliminating all political forces from the Iranian society, 
particularly women and the youth, and established its rule.
    And for the past 37 years a fundamentalist government has 
been in power in Tehran. This regime is based on two pillars--
export of terrorism and fundamentalism outside and domestic 
repression, and at the same time trying to acquire nuclear 
weapons in order to take hostage the international community 
for doing nothing against these atrocities.
    These are the basis or the pillars of this regime. In the 
month of April, just in this month, nearly 150 executions have 
been announced in Iran. Only by absolute repression they are 
maintaining their power.
    But on the other hand, there is--an organized resistance, 
which has been resisting this fundamentalist regime for the 
past 37 years and has been able to expose the fundamentalism 
and terrorism of this regime and to show the world who is the 
epicenter of fundamentalism in Iraq, Syria, Lebanon and Yemen 
and other parts of the world and to show that where are the 
secret sites, nuclear secret sites of the mullahs are operating 
and they have been operating and also to inform the world about 
the human rights violations in Iran.
    But I am absolutely confident that the people of Iran and 
the Iranian resistance will bring an end and overthrow this 
mullahs' regime and bring freedom and democracy for the people 
of Iran and for the people of the whole region.
    And just very briefly about Liberty, as I said, we expect 
that the United States Government upholds its obligations which 
has been violated by now and the U.S. Government must really 
put Camp Liberty under its own protection soon and to put an 
end to the blockade and to demand from the Iraqi Government to 
lift the blockade and to recognize their rights as a protected 
person under the Geneva Conventions. I thank you.
    Ms. Jackson Lee. Thank you. Thank you very much, Mr. 
Chairman.
    Mr. Poe. The gentlelady yields back her time.
    Ms. Jackson Lee. The gentlelady yields back the time. Thank 
you.
    Mr. Poe. I want to thank all of the members of the 
committee and guests of the committee for being here today.
    This has been a very insightful hearing and the witnesses 
have presented three different perspectives of the problem of 
ISIS, starting with Ambassador Ford succinctly analyzing that 
they are driven by doctrine and they are driven by the 
philosophy that compromise is a sin.
    And Dr. Phares, you brought in your expertise to say and 
show that this isn't just a philosophy that is against 
Christians and Jews but it is a philosophy that also attacks 
Muslims to a great deal--maybe more Muslims than other groups.
    And Ms. Rajavi, I want to thank you as well, bringing a 
perspective from an Iranian point of view that is not the 
official mullah point of view of the Government of Iran, having 
your expertise and seeing firsthand the results of oppression 
in Iran and the oppression of ISIS, and thank you as well, 
especially this late time in the evening. I guess it is about 
11:30 or 11:45 wherever, somewhere in there.
    But I do also want to thank all of the people in the 
audience that have shown a great interest in this hearing.
    So this subcommittee is adjourned and there will be follow-
up questions by--that can be submitted by members of the 
subcommittee to all of the witnesses that have testified.
    Thank you.
    [Whereupon, at 5:07 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Record

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



     Material submitted for the record by the Honorable Ted Poe, a 
   Representative in Congress from the State of Texas, and chairman, 
         Subcommittee on Terrorism, Nonproliferation, and Trade

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
     Material submitted for the record by the Honorable Ted Poe, a 
   Representative in Congress from the State of Texas, and chairman, 
         Subcommittee on Terrorism, Nonproliferation, and Trade

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
